IN THE SUPREME COURT OF THE UNITED STATES
No. _______
Matthew D. Norwood,
Machinist’s Mate Nuclear Petty Officer First Class,
United States Navy,
Petitioner
v.
United States of America,
Respondent

CERTIFICATE OF COMPLIANCE
I hereby certify that the accompanying Petition for Writ of Certiorari in
Norwood v. United States, complies with the word count limitations of Supreme
Court Rule 33(g) in that it contains 2658 words, based on the word-count function of
Microsoft Word, including footnotes, and excluding material not required to be
counted by Rule 33(d).

CHRISTOPHER K. RIEDEL
LCDR, JAGC, USN
U.S. Navy-Marine Corps
Appellate Defense Division
1254 Charles Morris St, SE
Bldg. 58, Suite 100
Washington Navy Yard, D.C. 20374
(202) 685-7292
christopher.riedel@navy.mil

